@OCKLE

Le 2 al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-404

DAVID SETH WORMAN, et al.,
Petitioners,
v.
MAURAT. HEALEY, IN HER OFFICIAL
CAPACITY AS ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
CATO INSTITUTE, FIREARMS POLICY COALITION, FIREARMS POLICY FOUNDATION,
CALIFORNIA GUN RIGHTS FOUNDATION, SECOND AMENDMENT FOUNDATION,
CITIZENS COMMITTEE FOR THE RIGHT TO KEEP AND BEAR ARMS, JEWS FOR THE
PRESERVATION OF FIREARMS OWNERSHIP, MADISON SOCIETY FOUNDATION, AND
INDEPENDENCE INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5479 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . . Zz. 2 fs f,
State of Nebraska : ‘
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 38832

 

 
